<html>
<title> - NUCLEAR REACTOR DECOMMISSIONING: STAKEHOLDER VIEWS</title>
<body><pre>[Senate Hearing 113-765]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-765

           NUCLEAR REACTOR DECOMMISSIONING: STAKEHOLDER VIEWS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works


       Available via the World Wide Web: http://www.gpo.gov/fdsys
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                          U.S. GOVERNMENT PUBLISHING OFFICE
97-802 PDF                     WASHINGTON : 2016                          
       
_________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5d3a2d321d3e282e293538312d733e323073">[email&#160;protected]</a>  
      
       
       


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 14, 2014
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James, U.S. Senator from the State of Oklahoma......     2
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     4
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     6
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......     6

                               WITNESSES

Weber, Michael, Deputy Executive Director, Operations, Materials, 
  Waste, Research, State, Tribal and Compliance Programs, U.S. 
  Nuclear Regulatory Commission..................................     8
    Prepared statement...........................................    11
Responses to additional questions from:
    Senator Boxer................................................    19
    Senator Carper...............................................    27
    Senator Vitter...............................................    32
Mosier, Don, Council Member, City of Del Mar, California.........    94
    Prepared statement...........................................    96
    Responses to additional questions from Senator Carper........    98
Recchia, Christopher, Commissioner, Vermont Public Service 
  Department.....................................................    99
    Prepared statement...........................................   101
    Responses to additional questions from Senator Carper........   133
Fettus, Geoffrey, Senior Attorney, Natural Resources Defense 
  Council........................................................   140
    Prepared statement...........................................   142
    Responses to additional questions from Senator Carper........   153
Fertel, Marvin S., President and Chief Executive Officer, Nuclear 
  Energy Institute...............................................   158
    Prepared statement...........................................   160

 
           NUCLEAR REACTOR DECOMMISSIONING: STAKEHOLDER VIEWS

                              ----------                              


                        WEDNESDAY, MAY 14, 2014

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m. in 
room 406, Dirksen Senate Building, Hon. Barbara Boxer (chairman 
of the committee) presiding.
    Present: Senators Boxer, Sanders, Markey, Vitter, Sessions 
and Inhofe.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning.
    We have a wonderful panel here and several members. We are 
going to keep our opening statements to three to 4 minutes 
each. We have a vote in an hour.
    We are holding a hearing on the issues facing communities 
located near decommissioning nuclear reactors.
    Last year, four nuclear reactors were shut down 
permanently, including those at California San Onofre, which 
closed because of a severe safety failure. A fifth reactor at 
the Vermont Yankee plant will close at the end of this year and 
analysts have predicted more closures will follow.
    The San Onofre closures may bring some relief to California 
communities worried about the reactor's safety but I am 
concerned that the Nuclear Regulatory Commission is not doing 
everything it can to keep these communities safe during the 
decommissioning process, including maintaining all emergency 
response capabilities.
    The people who live and work nearby need to have a voice in 
the decommissioning process and we will hear from a 
representative of one of those communities today.
    When reactors shut down, they stop producing energy. 
However, all of the highly radioactive fuel must remain stored 
in a large pool of cooling water five to 7 years after it comes 
out of the reactor core because it is far too dangerous to 
remove.
    Today, I plan to discuss studies that have shown that an 
accident or terror attack on a crowded spent fuel pool could 
result in spontaneous fire and the release of large quantities 
of radiation. We don't want that to happen.
    The NRC has also determined that an earthquake would be the 
most likely cause of a spent fuel pool accident. It seems that 
some of these plants are located on or near earthquake faults. 
We must ensure that these scenarios are addressed.
    At San Onofre, the spent fuel pools were designed to hold a 
total of 600 spent fuel assemblies but currently they hold more 
than 2,600. That over crowding puts them at risk of serious 
safety consequences if they experience an accident or terror 
attack. Make no mistake, the reactors may be shut down but the 
risk of an accident or an attack has not gone away.
    While NRC Chairman Allison Macfarlane co-authored a paper 
that found that the long term land contamination consequences 
for spent fuel fire ``could be significantly worse than 
Chernobyl,'' NRC has taken no action thus far to ensure 
appropriate levels of protection are in place.
    In fact, every time operators of decommissioning reactors 
have asked to be exempted from NRC's emergency response 
regulations, the NRC has said yes. That means no more 
evacuation zones or planning, no more warning sirens and no 
more emergency relocation centers.
    NRC justifies this by saying a spent fuel fire at a 
decommissioning reactor would take 10 hours to ignite after an 
accident or terror attack occurred. NRC also assumes that 10 
hours would be enough to fix the problem.
    Hoping that the consequences of a catastrophe on a spent 
fuel pool could be stopped within 10 hours is not responsible 
or realistic. For examples, less than 10 hours after the 
earthquake and tsunami at Fukushima, high levels of radiation 
were already being measured outside the reactor buildings and 
most of the fire trucks and the pumps that were supposed to 
provide water to cool the reactors were found to be unusable. I 
think we remember that.
    We just cannot assume that everything will go as NRC hopes. 
You don't go into the situation with just hope. You have to 
have a plan. That is why yesterday I introduced the Safe and 
Secure Decommissioning Act of 2014.
    This bill prohibits the NRC from approving any emergency 
response or security exemption requests that are supposed to 
protect against a spent fuel accident until all the spent fuel 
is placed into safer, dry cast storage. I have also co-
sponsored two other bills by Senators Sanders and Markey.
    Safety for the American people is our No. 1 priority and it 
doesn't change whether a nuclear facility is fully operational 
or shut down. I look forward to hearing from witnesses so we 
can make sure we get all the information we need to keep 
communities located near decommissioning reactors as safe as 
they can be.
    With that, I will call on Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman.
    I have been critical of the NRC over a lot of things. 
Current electricity markets and the lack of demand for new 
nuclear power plants means that the NRC has a budget that I 
believe is too big. The NRC's budget has allowed its staff to 
swell to what I believe are unjustifiable levels which has 
resulted in development of new and unnecessary regulations.
    Putting that aside, I have full confidence in the NRC's 
ability to handle the nuclear decommissioning process. They 
have done it successfully many times and the agency is handling 
the current decommissioning projects well.
    I know there are some, including Senators Sanders and 
Boxer, who are concerned that the level of community engagement 
allowed by the NRC and the plant operators during the 
decommissioning process has been lacking and this justifies the 
need for additional Federal legislation or NRC regulations. I 
don't think that is the case.
    All the plants currently undergoing decommissioning have 
gone out of their way to engage the public. They have allowed 
the public to air their concerns and frustrations and have 
communicated what they are doing at every step of the process.
    To me, this kind of responsiveness is exactly what we need. 
We should not legislate something that is working well on a 
voluntary basis. Other concerns have been raised over the 
safety of spent fuels that have been removed from reactors and 
decommissioned plants.
    I am going to shorten my statement in accordance with the 
timeframe that we have here.
    This committee and the NRC have been particularly concerned 
about the U.S. nuclear fleet risk to the Fukushima like event. 
Importantly, at Fukushima, the spent fuel structures were not 
compromised and neither was the fuel inside them.
    Regardless, the NRC staff conducted a study on the U.S. 
fleet's spent fuel pool risk and concluded, ``The likelihood of 
a radiological release is very low, about 1 time in 10,000,000 
years or lower.'' The study predicted no early fatalities 
attributable to radiation exposure.
    ``Consequently, our staff concluded expediting movement of 
spent fuel from the pool does not provide a substantial safety 
enhancement.''
    They also recommended that this issue be put to rest and 
that the agency's time and resources be spent on other 
priorities. Knowing this, calls to expedite the transfer of 
fuel from pools to casks are unwarranted as the calls to 
maintain security and regulatory protocols at unnecessarily 
high levels at decommissioning sites.
    Pushes like this add tremendously to the cumulative cost of 
operating and maintaining a nuclear plant. That cannot be 
understated. The nuclear power industry is incredibly important 
to this country. It accounts for 20 percent of our electricity 
generation, but many plants are hobbling along right now.
    The cumulative cost of the regulations on the industry, 
whether from the EPA with its impeding 316(b) rule, with which 
we are all very familiar, or the NRC with its front end and 
back end regulatory control of our plants' operations are the 
main threat to the nuclear industry's future.
    We, on this committee, need to treat these assets as what 
they are, intentionally valuable. I think this is a well-
balanced committee and I have quite specific questions and I do 
want to make sure we get the answers in the record, Madam 
Chairman.
    Thank you for holding this meeting.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    I have been critical of the Nuclear Regulatory Commission 
over many things. For one, current electricity markets and the 
lack of demand for new nuclear power plants means that the NRC 
has a budget that's too big. The NRC's budget has allowed its 
staff to swell to unjustifiable levels, which has resulted in 
the development of new and unnecessary regulations. Putting 
that aside, I have full confidence in the NRC's ability to 
handle the nuclear decommissioning process. They've done it 
successfully many times, and the agency is handling the current 
decommissioning projects well. I know some are concerned that 
the level of community engagement allowed by NRC and the plant 
operators during the decommissioning process has been lacking, 
and that this justifies the need for additional Federal 
legislation or NRC regulations, but I don't think this is 
necessary.
    All of the plants currently undergoing decommissioning have 
gone out of their way to engage the public. They have allowed 
the public to air their concerns and frustrations, and they 
have communicated what they're doing at every step of the 
process. To me, this kind of responsiveness is exactly what we 
need. We should not legislate something that's working well on 
a voluntary basis. Other concerns have been raised over the 
safety of spent fuel that has been removed from the reactors of 
decommissioned plants. Spent fuel must spend a time in pools 
after being removed from a reactor so they can cool down. Once 
cool enough, they can be stored in dry casks and eventually 
placed at Yucca Mountain for long term storage. And it's 
important to note that when fuel is removed from the reactor 
and placed in spent fuel pools, the risk profile of the site 
goes down dramatically.
    This Committee and the NRC have been particularly concerned 
about the U.S. nuclear fleet's risk to a Fukushima-like event. 
Importantly, at Fukushima the spent fuel structures were not 
compromised and neither was the fuel inside them. Regardless, 
the NRC staff conducted a study on the U.S. fleet's spent fuel 
pool risk and concluded that ``the likelihood of a radiological 
release[is] very low (about 1 time in 10 million years or 
lower) . . . [and] the study predicted no early fatalities 
attributable to radiation exposure.'' Consequently, the staff 
concluded that ``expediting movement of spent fuel from the 
pool does not provide a substantial safety enhancement.'' They 
also recommended that this issue be put to rest and that the 
agency's time and resources be spent on other priorities. 
Knowing this, calls to expedite the transfer of fuel from pools 
to casks are unwarranted, as are calls to maintain security and 
regulatory protocols at unnecessarily high levels at 
decommissioning sites.
    Pushes like this add tremendously to the cumulative cost of 
operating and maintaining a nuclear power plant. And that can't 
be underestimated. The nuclear power industry is incredibly 
important to this country. It accounts for 20 percent of our 
electricity generation, but many plants are hobbling along in 
profitability right now. The cumulative cost of regulations on 
the industry--whether from the EPA with its impending 316(b) 
rule or the NRC with its front-end and back-end regulatory 
control over a plant's operations--are the main threat to the 
nuclear industry's future. We on this committee need to treat 
these assets for what they are--intensely valuable, fully 
depreciated societal treasures that provide the Nation with the 
cheap, clean, and reliable electricity we need to create jobs 
and prosperity.

    Senator Boxer. Without a doubt, we will do that.
    Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Madam Chair, thank you very much for 
holding this hearing which I will tell you deals with an issue 
of great importance to the people of the State of Vermont and 
States around this country which have nuclear plants that are 
being decommissioned.
    As you know, when one closes down a nuclear power plant, it 
means lost jobs. In the case of the Yankee Nuclear power plant, 
we are talking about several hundred jobs. It means lost 
revenue to the community and lost revenue to the State. Mostly, 
it is an issue of safety. People want to know what is happening 
in that plant and the nature of the decommissioning.
    We in Vermont are very concerned that the decommissioning 
process could take up to 60 years. Let me repeat that. There 
are some suggestions that the decommissioning of Vermont Yankee 
could take up to 60 years. Frankly, that is not acceptable to 
the people of the State of Vermont but that could happen under 
the current NRC rules.
    The licensee in Vermont has a long history of safety and 
disclosure problems, despite NRC oversight including the 
collapse of a cooling tower and multiple leaks of radioactive 
material. The prospect of letting a dangerous plant sit there 
decade after decade after decade makes the people of the State 
of Vermont very uncomfortable.
    I am sure Vermonters are not alone in their concern. I 
suspect, Chairman Boxer, that same concern exists in California 
and in other States with nuclear power plants that are being 
shut down.
    The problem we are dealing with is that the NRC now does 
not allow host States, the States that host the nuclear power 
plant, any kind of meaningful role in crafting the 
decommissioning plant despite the obvious impact to those 
States. A plant is sitting in a State, the plant's closing has 
enormous impact on the State, yet the State has very, very 
little say in how that plant is being closed.
    For my conservative friends who worry about local control, 
I would suggest this is very much a local control issue. At 
best, currently, States have a token opportunity to provide 
public comment after the plant is already finalized, but this 
is not good enough.
    In our case, the Vermont Yankee licensee could adopt a 
decommissioning plan that ignores needs and interests of 
Vermonters and the State would have no recourse. To my mind, 
that is unfair and unreasonable.
    I want to acknowledge the significance of the agreement 
that the State of Vermont struck with Entergy, which owns 
Vermont Yankee, which was approved by the Public Service Board 
in March and which signals an improved relationship. That is a 
step forward.
    However, even this agreement does not address many of the 
most difficult issues. Under current law, there is no assurance 
that the concerns of the State or impacted local communities 
will be reasonably addressed. I think they should. I think most 
fair minded people would think the State being impacted by the 
decommissioning should have a seat at the table.
    This is an issue in every State currently facing 
decommissioning and could be a problem for many other States 
with plants that may be decommissioned in the future, including 
States like California, Florida, Wisconsin, New Jersey, New 
Jersey and Ohio.
    This is not a Democrat, Republican or Independent issue. It 
is not an urban or rural issue. It is certainly not a pro-
nuclear or anti-nuclear issue. This is simply about ensuring 
that States have the opportunity to play a meaningful in a 
decision that has enormous impact on the people of that State, 
on that State's economy, on its environment and on its 
communities.
    I want to thank the Chair for holding this hearing which 
addresses these issues. With that, Madam Chair, I would yield.
    Senator Boxer. Thank you.
    Senator Vitter, followed by Senator Sessions.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Chairman Boxer, for convening 
this hearing.
    I also want to thank our distinguished witnesses.
    Certainly the regulations enforcing security and safety 
standards during decommissioning are very important to the 
country and certainly those who live and work right around 
these facilities. That is a factor we need to consider, 
particularly as more plants are forced to shut down in part, I 
think, due to an erratic regulatory environment. That is why 
today's hearing is crucial.
    It is also crucial before changes are made to the 
decommissioning process to hear from those directly impacted 
and to hear from experts.
    The good news is that since the 1960's, the U.S. has 
decommissioned 11 nuclear reactors with 17 still going through 
that process. Throughout this 50-plus year period, there has 
not been any mishap in the process that has resulted in harm to 
public safety.
    That does not mean our process is perfect; it doesn't mean 
we shouldn't always look at it and reexamine it potentially but 
that is the good news. That does give us caution for 
significant changes.
    Before changes are made, I certainly want to hear about the 
safety benefits of those changes also in relation to the costs. 
I also want to hear from the NRC, their experts and their 
employees. I am concerned about some push or changes to this 
process that is actually opposed by the Commission, that the 
Commission says will not add to safety but will take a lot of 
time and resources instead.
    I think it is important to have this discussion about 
safety to make sure we continue to provide that safe 
environment for decommissioning.
    I look forward to your testimony.
    Senator Boxer. Senator, thank you.
    Senator Sessions.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Thank you, Madam Chair, for this hearing.
    Safe nuclear reactor decommissioning is a technical 
process, an expensive process and it takes time to do it safely 
and properly. It is a proven process.
    Federal law, Senator Sanders, is supreme law. This process 
of nuclear power regulation has been preempted by the Federal 
Government. I think there are real problems arising if you give 
legal power to States to alter reactor decommissioning or other 
changes in reactors after it has been established differently 
at the beginning. It threatens the future of nuclear power.
    It is an open process. All State and local stakeholders and 
the interested parties can appear, raise issues, complain, 
point out and make suggestions for improvement.
    Current regulations are developed by professional staff at 
NRC and allow for up to 60 years to decommission plants, but it 
is a careful process. The safest and best way is to not go too 
fast. Let the plants cool down a bit before you go through the 
process.
    Nuclear plant licensees are required to establish a 
financial mechanism to ensure they have the resources, 
estimated between $300 million to $400 million or more, to 
decommission plants. There have been no problems with that 
financial responsibility to date and we don't expect any.
    In spite of these hurdles, the United States has 
successfully performed decommissioning work for nearly 50 
years. More than 25 reactor locations have begun 
decommissioning processes and 11 have successfully completed 
it. Many of these sites have returned to productive use as 
green field sites.
    It is vital as the Nation faces the shutdown of up to six 
nuclear reactors in a short amount of time that the public 
continues to have confidence in the scientific and technical 
assessments of the Nuclear Regulatory Commission. This is 
particularly true in face of the large number of nuclear power 
plants closure announcements. The industry gaining environment 
support worldwide is very fragile financially.
    Kewaunee Power Station in Wisconsin, Vermont Yankee, 
Crystal River, San Onofre Units 2 and 3 in California, Oyster 
Creek in New Jersey are plants being closed. There is one area, 
however, where the public should be skeptical of political 
distortion in the decommissioning process and indeed, the 
blatant violation of laws and contracts.
    The Nation continues to have no long-term storage for 
nuclear waste despite the 1987 nuclear waste policy amendments 
clearly designating Yucca Mountain as the Nation's sole 
permanent repository for nuclear waste. Despite the Department 
of Energy's legal obligation, no nuclear wastes have been 
collected.
    Of the 25 sites where decommissioning has begun, all but 9 
have nuclear waste stored onsite. After undergoing a decade 
long process costing hundreds of millions of dollars, reactor 
vessels, steam generators and buildings have been safely 
removed at 11 sites. Of the 11 sites, 7 of them still have fuel 
storage onsite waiting for the Federal Government to pick up 
the waste and move it to a repository.
    In fact, beginning tomorrow, the Department of Energy will 
no longer be able to collect the waste fee from civilian 
nuclear power generators or their customers. This is because 
the D.C. Circuit Court on December 20, 2013 issued an order 
finding the government has failed to fulfill its contractual 
obligations and can no longer collect the money.
    The Court brutally criticized the process and highlighted 
the obstruction by former NRC Chairman Jaczko and others. They 
found ``Former NRC Chairman Gregory Jaczko orchestrated a 
systematic campaign of non-compliance. Jaczko unilaterally 
ordered Commission staff to terminate the Yucca Mountain review 
process in October 2010, instructed staff to remove key 
findings from reports evaluating the Yucca Mountain site and 
ignored the will of the fellow commissioners.''
    These are the problems we have which are causing stress in 
our nuclear industry. We have to put this matter to rest. I 
believe we can. I believe the NRC is capable and has worked for 
decades to develop this decommissioning process. We need to 
continue with it. If there are technical improvements, so be 
it.
    It is now a cloud over the future of the nuclear industry. 
That is a threat to our financial future and we have to get it 
fixed.
    Thank you, Madam Chair.
    Senator Boxer. Thank you very much.
    We will now turn to our panel. Michael Weber is Deputy 
Executive Director for Operations, Materials, Waste, Research, 
State, Tribal and Compliance Programs, at the NRC. Welcome, 
sir.
    Next, we have Hon. Don Mosier, Council Member, city of Del 
Mar, California, one of the most beautiful places. Dr. Mosier 
was first elected to the Del Mar City Council in 2008. He 
served as Mayor in 2011. He is also a professor in the 
Department of Immunology and Microbial Science at the Scripps 
Research Institute. He has had longstanding safety concerns 
about the San Onofre Nuclear Plant, some of which he will share 
with us today.
    Mr. Christopher Recchia is Commissioner of the Vermont 
Public Service Department. Mr. Geoffrey Fettus is Senior 
Attorney at the Natural Resources Defense Council. Mr. Marvin 
Fertel is President and Chief Executive Officer of Nuclear 
Energy Institute.
    Gentlemen, you all come here with amazing credentials and 
we look forward to your testimony. We will begin with Mr. 
Weber.

    STATEMENT OF MICHAEL WEBER, DEPUTY EXECUTIVE DIRECTOR, 
   OPERATIONS, MATERIALS, WASTE, RESEARCH, STATE, TRIBAL AND 
    COMPLIANCE PROGRAMS, U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Weber. Good morning, Chairman Boxer, Ranking Member 
Vitter and members of the committee. It is my pleasure to 
appear before you today to present the views of the Nuclear 
Regulatory Commission.
    In my testimony, I would like to highlight how NRC 
accomplishes its safety and security mission in the safe 
decommissioning of nuclear power plants, including the 
management of spent fuel generated by those plants during 
operations.
    I will discuss the regulatory process for nuclear power 
plant decommissioning, including both our role and our 
engagement of stakeholders including individual citizens, State 
and local governments, tribal governments, industry and non-
governmental organizations.
    NRC's requirements and regulatory programs have evolved for 
nuclear power plant decommissioning since the agency was 
established in 1975. The decommissioning process commences for 
nuclear power plants with a formal written notification to the 
NRC by the licensee that nuclear operations have terminated and 
that fuel has been removed from the reactor core.
    These notifications are publicly available and any 
individual can remain informed as the decommissioning process 
proceeds.
    Within 2 years of permanent shutdown, NRC requires that 
licensees submit a report called the Post Shutdown 
Decommissioning Activities Report or PSDAR. That report is 
publicly available. No major decommissioning activities 
described in the report can begin any sooner than 90 days after 
the agency receives it. During our review of the report, the 
NRC holds a public meeting in the vicinity of the shut down 
nuclear power plant to receive public comments on that report.
    There are three primary approaches that licensees can use 
to accomplish decommissioning in accordance with the NRC's 
regulations. First is immediate dismantlement or DECON; 
deferred dismantlement or SAFSTOR; and entombment or ENTOMB. 
The DECON option consists of prompt dismantlement and removal 
of radioactively contaminated equipment, structures and 
buildings.
    Under the SAFSTOR alternative, licensees may promptly 
remove some of the contaminated equipment and structures but 
most of that material remains for some period of time in a 
safe, stable condition until it is subsequently decontaminated 
to levels that no longer require regulatory control.
    During SAFSTOR, the spent nuclear fuel either remains 
safely and securely stored in the spent fuel pools or is 
removed to NRC-certified storage dry casks hosted at an onsite, 
independent spent fuel storage installation.
    Licensees make the decisions on which alternative to pursue 
for decommissioning taking a variety of factors into 
consideration, including insuring plant safety first and 
foremost, the potential dose to the workers, availability of 
decommissioning funds, access to low level waste disposal 
facilities, potential use of the site and stakeholder input.
    Anytime after decommissioning commences but at least 2 
years before the licensee intends to seek termination of the 
license, the licensee must submit a license termination plan 
for the remainder of the decommissioning activities.
    NRC makes that license termination plan publicly available 
on its website and after a detailed regulatory review of the 
plan, the NRC will approve this plan and issue a license 
amendment if the plan demonstrates the decommissioning can be 
accomplished safely and in accordance with the NRC's 
requirements.
    Because the license termination plan is approved through a 
license amendment, there is an opportunity for the public, 
including State, local and tribal governments to request a 
hearing on that plan. In addition, there is the opportunity for 
stakeholders to comment on that plan without requesting a 
hearing.
    Throughout the decommissioning process, the NRC continues 
to oversee the safe decommissioning as well as the security and 
compliance with our activities conducted by the licensee 
through onsite inspections. The NRC adjusts that level of 
oversight to insure safety and security as well as in response 
to the licensee's performance in conducting the 
decommissioning.
    Since 1982, the NRC has overseen the successful completion 
of decommissioning at 11 nuclear power plants. Each of these 
completed sites was decommissioned in a safe and effective 
manner that supported termination of the license and release of 
the site for other uses.
    As already alluded, a number of plants have recently 
announced their intent to also decommission, including 
Kewaunee, Crystal River and the San Onofre Nuclear Generating 
Stations. Vermont Yankee has also announced its intent to 
terminate operations by the end of 2014.
    While the NRC believes that its regulatory program 
adequately protects public health and safety, we continually 
assess the lessons learned from decommissioning to identify and 
make appropriate improvements to that process.
    I thank you for the opportunity to present testimony and 
look forward to your questions.
    [The prepared statement of Mr. Weber follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you.
    Now we turn to Hon. Don Mosier.

   STATEMENT OF DON MOSIER, COUNCIL MEMBER, CITY OF DEL MAR, 
                           CALIFORNIA

    Mr. Mosier. Thank you, Chairman Boxer, Senator Vitter and 
members of the committee.
    Del Mar is 32 miles down wind of San Onofre, which I am 
going to call SONGS. I mention down wind because that is the 
prevailing winds and if anything goes wrong at San Onofre, we 
are one of the cities that will be impacted. There are 8 
million people who live within a 50-mile radius of SONGS and 
the entire San Diego area is downwind of this reactor.
    We were initially pleased when the defective steam 
generators caused the closure of San Onofre but upon closer 
examination, we now realize the risk has been diminished very 
little because every fuel rod ever used at San Onofre is still 
onsite. That is over 4,000 tons of radioactive waste.
    The spent fuel pools at San Onofre were designed to hold 
over 1,600 fuel rods but they are already overcrowded with more 
than 2,600 fuel rods. These fuel rods are of high burn up 
uranium, twice as radioactive as the original fuel rods used at 
the plant. When the spent fuel pool was designed they were 
designed to hold the old style rods.
    This lead already to significant public safety risk and 
that is what I am concerned about, the risk to our public. In 
2007, one of the Boraflex neutron absorbing panels of the spent 
fuel pools degenerated leading to a situation the NRC called 
highly critical which means there was almost a spent fuel pool 
fire. This was because of the overcrowding and the highly 
radioactive fuel rods.
    Eight million people are depending on the NRC to oversee 
this plant and yet we have already had a number of incidents. 
This is only one of them.
    There are numerous challenges to moving rapidly to dry cask 
storage, which would be much safer, but this high burn-up fuel 
has never been stored safely in dry cask and there is no 
current design that assures 20 years of storage. In fact with 
the level of fuel at San Onofre, it is likely it will take the 
full 60 years decommissioning period to store all this fuel.
    Obviously we would like to get that fuel offsite. San 
Onofre is located eight miles from a major fault. It is right 
next to InterState 5. If there were an earthquake or a 
terrorist attack, this is a very vulnerable site. As long as 
the fuel is still in spent fuel pools, it is very vulnerable to 
earthquakes and terrorist attacks.
    The city of Del Mar also believes that State and local 
officials should be involved in the regulatory process. If I 
could disagree with my colleagues at the NRC, the NRC oversight 
of the decommissioning process is really very weak. They do not 
have the ability to say stop, change your process, it is not 
good. All they can do is approve whatever the utility submits.
    I am very much in support of the new Senate bill introduced 
by Senators Boxer, Markey and Sanders because we do need more 
input in this critical process. These public participation 
panels are great for exchanging information but they have no 
regulatory authority whatsoever. That is a problem.
    Again, it is the safety of the eight million people living 
in southern California that is our concern. History has shown 
that we cannot trust the NRC to insure the safety of our 
citizens.
    Thank you.
    [The prepared statement of Mr. Mosier follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]     
       
    Senator Boxer. Thank you very much.
    Now we turn to Commissioner Christopher Recchia from 
Vermont.

STATEMENT OF CHRISTOPHER RECCHIA, COMMISSIONER, VERMONT PUBLIC 
                       SERVICE DEPARTMENT

    Mr. Recchia. Thank you, Chairman Boxer and Ranking Member 
Vitter.
    I particularly want to thank Senator Sanders for his 
leadership on the Vermont Yankee issues and also for the bills 
that were introduced yesterday.
    I really appreciate the opportunity to be here today to 
discuss with you Vermont's observations about the closing and 
decommissioning process and lessons learned so far and hopeful 
expeditious decommissioning of the Vermont Yankee Nuclear Power 
Station.
    I say hopeful because I think it is in everyone's interest 
to decommission this plant quickly and by decommissioning get 
to the technical points that Mr. Weber mentioned, I mean the 
decontamination and dismantlement of the facility in order to 
create a green field, in order to get that property back into 
economic use. Personally, in my lifetime, I would like to see 
that happen, not within 60 years.
    Left to rely on the NRC structure alone, Vermont really has 
precious little control over how and when decommissioning 
occurs and very little influence over how the NRC and Entergy, 
the owners of the plant, choose to proceed. I believe this 
needs to change and have some very specific and relatively 
reasonable suggestions on how to move that forward.
    Quickly, a brief history on the Vermont Yankee station. We 
willingly hosted the plant for 40 years during its original 
license term from 1972 to 2012. It was only when the NRC and 
Entergy sought to renew that license that we felt we needed to 
oppose that and yet it was done over Vermont's objections.
    Our belief then and now was that the plant had served its 
purpose, was at the end of its useful life and that our energy 
future rested elsewhere. The State needed to be a partner in 
the initial licensing of that facility and should have been a 
partner in any extension.
    In 2011, under the leadership of Governor Peter Shumlin and 
overwhelming support of Vermonters, we adopted a comprehensive 
energy plan for Vermont that calls for 90 percent renewables by 
2050 across all sectors--electricity, thermal energy and 
transportation.
    We have our first statewide efficiency utility that has 
worked to save $1 billion in energy costs for Vermonters since 
its inception. Its parent company is now working in DC to try 
and accomplish the same for the District.
    We have made sure to put our renewable energy commitment 
into practice. I want to emphasize this point. Since March 2012 
after the original license of the plant was completed, Vermont 
has received and taken no electricity from the Vermont Yankee 
Nuclear Power Station.
    In August 2013, Entergy announced that they were closing 
and we did work to reach an agreement with them on how to 
proceed. I am pleased with that agreement. It is for the 
benefit of Vermonters but nonetheless we were a little 
hamstrung in the ability to negotiate that agreement.
    There were things we were not able to agree on, things that 
NRC has allowed nuclear power plants to do in the past that 
Entergy wanted to retain the rights to do. In short, I would 
say Vermont was not well served by NRC's past decisions and 
current approach to decommissioning as an underpinning of these 
negotiations.
    We essentially negotiated with one hand tied behind our 
backs but I think we did the best we could for Vermonters.
    As a result of that experience, the Vermont delegation, the 
Governor and the Attorney General did meet with Chairman 
MacFarlane to say is there a way that we could move this 
forward better? We got a response but in essence, it really 
focuses on the idea that there are opportunities to comment as 
Mr. Weber pointed out.
    One critical point I want to emphasize is this. The PSDAR 
that is the foundation of any decommissioning plan is developed 
by the owner of the plant and is sent to the NRC but the NRC 
does not have to act on that. In most cases, it does not. There 
is no review or approval by the NRC. As a result, 90 days 
passes and then the plant can proceed.
    Yes, there is public hearing, there is public input, but 
there is no responsiveness summary or any action needed by the 
NRC to response to comments that might be received. I really 
know of no other regulatory structure in which something of 
that significance is not analyzed and responded to.
    We are not suggesting that you change the authority of the 
NRC or give States more rights, if you will, over the process 
other than have a meaningful role in the participation of it, 
other than making sure that the NRC is responsive to the 
comments received.
    Chairman Boxer. Sir, I think I am going to have to stop 
you.
    Mr. Recchia. With that, I thank you very much.
    [The prepared statement of Mr. Recchia follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
       
       
    Senator Boxer. Thank you very much. We put all of your full 
statements into the record.
    We will turn our attention to Mr. Geoffrey Fettus, Senior 
Attorney with the Natural Resources Defense Council. Welcome.

    STATEMENT OF GEOFFREY FETTUS, SENIOR ATTORNEY, NATURAL 
                   RESOURCES DEFENSE COUNCIL

    Mr. Fettus. Chairman Boxer, Ranking Member Vitter and 
members of the committee, thank you so much for having us. I 
will endeavor to be concise.
    With the gradual drumbeat of retiring reactors in the past 
few years for various aging, safety and economic reasons, it is 
timely for the committee to take up this matter and press ahead 
in addressing these regulatory issues that we have before us, 
as you see from the table. The bills introduced yesterday were 
a constructive and useful start.
    I will get right to the point. Chairman Boxer's home State 
of California also hosts the Humboldt Bay Reactor. Originally, 
that facility cost about $22 million to build and the 
decommissioning manager said about $382 million has been spent 
on decommissioning as of last May 2013. We expect far more than 
$1 billion to be spent before it is all done.
    This is a 63 megawatt reactor not dissimilar in size from 
the small modular reactors currently envisioned by some 
industry proponents. Like Humboldt Bay, if it turns out as now 
seems likely, other reactors may close before the expiration of 
their operating licenses and the owners could let them sit like 
radioactive, industrial relics for 30 to 60 years or even 
longer while interest accrues in the reactor's decommissioning 
accounts.
    Some States have expressed concern over this process as you 
have just heard. Further, there could be disagreements over 
these important issues: the extent of and safest treatment for 
the contamination left onsite; the firm's plans for safely 
removing the reactor vessels; the ultimate destinations and 
transport routes for dismantled debris; and the health and 
environmental limits for the release of sites and license 
termination, including the time window as noted above. All of 
these have been contested.
    I have advocated before this committee and your colleagues 
in the Senate Energy and Natural Resources Committee for 
meaningful State regulatory roles in the waste context and I do 
so here in the decommissioning context as well.
    I actually do think States should have meaningful 
regulatory authority just as they do for other environmental 
pollutants.
    Our primary concerns today with the decommissioning process 
are two very simple ones: ensuring the rules apply for as long 
as necessary to be sufficiently protective and our primary 
concern goes directly to the most significant area of danger 
which is spent fuel which is, as all the committee members 
know, dangerous and highly toxic.
    For the purpose of this hearing, spent fuel remains 
dangerous while it is in over-packed pools that weren't 
necessarily designed for the length of time they have been in 
use. We recommend barring such exemptions for as long as the 
spent fuel remains in the pools. We are gratified to see that a 
bill has been introduced to do exactly that.
    The other major consideration, considering the time we 
have, is adequate funding. We were very informed by the recent 
GAO report that called into question NRC's formula and whether 
or not it will reliably estimate adequate decommissioning 
costs.
    With the Humboldt Bay example, respectfully, while we have 
done 11 reactors, that is actually not a tremendous amount of 
experience compared to the amount of experience we have in 
operating reactors and operating a whole host of other 
industrial facilities.
    We see this as a relatively new issue that we hope to have 
a lot of information generated from the process going forward 
in Vermont and the process that is going to go forward at San 
Onofre and other locations.
    Put bluntly, NRDC is concerned that the States and their 
taxpayers could be placed in the position where they may flip 
significant portions of the bill and the burdens to 
decommission and decontaminate and restore reactor sites into 
greater resources.
    We should avoid such a fate and the bills introduced 
yesterday are a constructive start. This is an evolving issue 
and we thank the committee for holding this hearing.
    I look forward to your questions.
    [The prepared statement of Mr. Fettus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
    Senator Boxer. Thank you so much, Mr. Fettus.
    We will turn to our last witness, Mr. Marvin Fertel, 
President and Chief Executive Officer with the Nuclear Energy 
Institute. Welcome.

 STATEMENT OF MARVIN S. FERTEL, PRESIDENT AND CHIEF EXECUTIVE 
               OFFICER, NUCLEAR ENERGY INSTITUTE

    Mr. Fertel. Thank you, Chairman Boxer, Ranking Member 
Vitter, and members of the committee.
    As already mentioned, decommissioning involves 
decontaminating a commercial nuclear energy facility to reduce 
residual radioactivity, dismantling the structures, removing 
contaminated materials and components to appropriate disposal 
facilities and ultimately releasing the property for other 
uses.
    The nuclear energy industry has demonstrated that it has 
the technology, resources and expertise to successfully 
decommission commercial nuclear reactors. The decommissioning 
process, as overseen by the Nuclear Regulatory Commission with 
input from States and local government, is a proven and 
appropriate method for ensuring that the decommissioning of 
nuclear energy facilities is accomplished in a safe and secure 
environmentally compatible way.
    The process allows licensees to choose one of three 
decommissioning options that Mike Weber mentioned and they must 
be exercised within that 60-year period. Importantly, it also 
does provide opportunities for interaction with State, local 
communities and tribes allowing the public to attend meetings, 
provide comments and have access to plant specific 
decommissioning information and request a hearing before the 
license is terminated.
    The closure of more than 70 test and power reactors since 
1960 including 17 power reactor sites currently undergoing 
decommissioning, shows the effectiveness and success of the 
NRC's approach to regulating the decommissioning process.
    The NRC also ensures that adequate funds for 
decommissioning will be available when needed through a system 
that requires licensees to amass funds needed to decommission 
their facilities.
    Planning for decommissioning takes place over the life of 
the facility. Throughout the operation of a nuclear power plant 
from licensing through decommissioning, the licensee must 
provide the NRC with the assurance that sufficient funding will 
be available for the decommissioning process.
    As I mentioned earlier, the site must be decommissioned 
within the 60-year period of a plant ceasing operations.
    As Mr. Weber indicated, 5 years before expiration of an 
operating license, the company must provide the NRC with both a 
preliminary decommissioning cost estimate and a program 
description for managing used reactive fuel at the site after 
electricity production is stopped.
    Within 2 years of shutting down a facility, the company 
must submit a post shutdown decommissioning activities report 
to the NRC and the affected States. Licensees have three 
options to decommissioning that have been mentioned before.
    Decommissioning also includes removing used fuel from the 
reactor and ultimately placing the fuel into shielded dry 
storage containers onsite. The company that produced 
electricity at the facility remains accountable to the NRC 
until decommissioning has been fully completed and its Federal 
license is terminated.
    However, without the demands of running a power plant and 
with the greatly decreased risk of significant accident after 
fuel was removed from the reactor, stamping in areas such as 
operations, maintenance, engineering, emergency preparedness 
and security and other onsite resources can be reduced to be 
commensurate with the conditions of the plant and the reduced 
risk to the public and workers.
    Throughout the decommissioning process, regulatory 
oversight is provided by the NRC, the Occupational Safety and 
Health Administration, the Department of Transportation and the 
Environmental Protection Agency. There are also multiple 
opportunities for public involvement that I mentioned before. 
The request for a hearing before the license is terminated 
offers an opportunity for extensive solution.
    In conclusion, the nuclear energy industry has proven that 
it has the technology, resources and expertise to successfully 
decommission commercial reactors. Decommissioning nuclear 
energy facilities with independent oversight by the NRC and 
timely interaction with State and local authorities has been 
efficiently managed and funded in a safe and environmentally 
sound manner under existing regulations.
    The NRC ensures that funds for decommissioning will be 
available when needed through a system that requires licensees 
to amass funds needed to decommission their facilities over the 
entire life of the facility. The NRC's regulatory framework has 
been proven effective by the fact that every power reactor that 
is shut down and has been or is currently being decommissioned 
has been able to fund and safely perform required 
decommissioning activities.
    This has been the case even in situations where the 
licensee did not operate the facility to the end of its entire 
license term.
    Thank you very much for holding this hearing.
    [The prepared statement of Mr. Fertel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
        
    Senator Boxer. Thank you for all of your statements.
    Mr. Mosier, am I right on this? At San Onofre, the spent 
nuclear fuel pools were designed to hold a total of 1,600 spent 
fuel assemblies but currently they hold more than 2,600? You 
mentioned that. I just want to make sure that gets noticed.
    Mr. Mosier. Yes, that is correct. That number, 2,600, was 
as of 2010. Since the shutdown, the fuel rods have been moved 
so I don't have the current count. It is higher than 2,600.
    Senator Boxer. So it is at least 2,600. It was designed to 
hold 1,600.
    Mr. Weber, as the person overseeing the safety of this 
decommissioning, does this disturb you?
    Mr. Weber. NRC's focus is on safety and security.
    Senator Boxer. But does this disturb you, the fact that the 
fuel pools were designed to hold 1,600 spent fuels assemblies 
but there are more than 2,600 in there? Does that concern the 
NRC? Yes or no.
    Mr. Weber. Yes. We ensure the safety of that spent nuclear 
fuel.
    Senator Boxer. Yes, that concerns you. If it concerns you, 
then why aren't you moving now to ensure that most of the fuel 
in the pools, which is not high burn up fuel, should be moved 
to dry cask as soon as possible? Have you gotten involved in 
that or have you said to the company, you are exempted, just do 
what you want?
    Mr. Weber. We have evaluated the safety of spent nuclear 
fuel since the beginning of NRC's regulatory history in 
overseeing these facilities. About every 10 years, we have done 
a----
    Senator Boxer. I am asking you about this specific plant 
where 8 million people live within 50 miles. When I asked the 
sheriff there, she looked at me and said, if there is an 
accident, they have to go on the freeway. You can't move on the 
freeway most of the day. That is not an answer.
    I am not asking you globally. I appreciate that you want to 
do the right thing. I am asking specifically about my people 
who are near a facility that has 2,600 plus spent fuel rods 
there instead of the 1,600 the plant was designed to have and 
why you are not moving to make sure the fuel that is not the 
high burn up fuel is moved to dry cask as soon as possible at 
least to get it to the point that it was designed to be, 
leaving 1,600 in there?
    Mr. Weber. Because the fuel is safely stored today.
    Senator Boxer. Even though the facility wasn't designed--do 
you agree with that, Mr. Mosier?
    Mr. Mosier. No, I don't. The NRC did issue a report on the 
near criticality reaction because of the failure of the boron 
plates, born absorbs the neutrons and all the high burn up 
fuel. This failure was a near disaster. We don't know how often 
this is going to happen but the more fuel rods you put in the 
pool, the more boron you have to add--it is a technical problem 
that can't be solved with the existing pools.
    Senator Boxer. Because it wasn't designed to hold these 
many, is that correct?
    Mr. Mosier. That is correct.
    Senator Boxer. That is kind of a simple point. Answering me 
with some global answer doesn't do it for me. That, in itself, 
raises alarm bells.
    In 2001, NRC studies the risk of spent fuel accidents. The 
study found that the possibility of a fire leading to a large 
radioactive release can never be ruled out. This is NRC. Even 
years after a reactor shuts down, it found that large 
earthquakes are the most likely causes of spent fuel pool 
accident. We know we are right near an earthquake fault there.
    It also found that the health consequences of a spent fuel 
accident could be as bad as the consequences of a severe 
accident at an operating reactor. My staff has confirmed with 
NRC staff that no more recent data or analysis has altered 
these conclusions. Mr. Weber, is that correct? Do you still 
stand by that finding?
    Mr. Weber. We stand by the findings in new reg. 1738, which 
is the document you are referring to.
    Senator Boxer. I am just asking you, you stand by that 
finding.
    Mr. Weber. Yes.
    Senator Boxer. Then it confuses me. Mr. Fertel, does 
Nuclear Energy agree with NRC's analysis that a spent fuel 
accident could be as bad as the consequences of a severe 
accident at an operating reactor?
    Mr. Fertel. Under certain circumstances that they assume in 
the new reg, yes, you can get that answer, but under the 
regulations and the actions that they require you to take to 
plant and particularly things being done post-Fukushima, Madam 
Chairman. There are significant additional safeguards to 
prevent that from happening at any of the plants.
    Senator Boxer. That is the question. Mr. Mosier, I don't 
see that happening at San Onofre where they are not saying move 
to dry cask. They are essentially saying to the company, don't 
worry about it.
    Mr. Mosier. That is my impression. I have gone to meetings 
the NRC has held talking about decommissioning plans. Frankly, 
those were the most non-productive meetings I have ever 
attended in my life since we had hours of testimony about what 
the regulations are and none about enforcement and what they 
were going to do at San Onofre.
    Senator Boxer. That is my worry.
    Senator Vitter or Mr. Inhofe, I don't know which one of you 
wants to go first. It is your call.
    Senator Vitter. I will go first.
    Thank you, witnesses, for being here.
    I think it is important since these three bills were just 
filed to focus on the ideas behind these three bills. They 
focus on emergency exemptions, State involvement and expedited 
transfer.
    First, on the so-called emergency exemptions, I think some 
of this is semantics. There is an attack that a company would 
get exemptions from regulations but as I understand it, the 
reason for exemptions is these are requirements that mainly 
apply to operating nuclear plants. When you turn from an 
operating nuclear plant to a non-operating plant, a plant that 
is being decommissioned, that is a very different animal, I 
assume.
    I am not an expert or an engineer but I assume there are 
big differences between one and the other. Is that correct, Mr. 
Weber?
    Mr. Weber. You are correct, Senator Vitter. The regulations 
exemptions are sought from are really applicable to operating 
nuclear power plants. When the plant converts to a 
decommissioning status, the risk posed by that operation, the 
security needs, the requirements for emergency preparedness are 
reduced compared to what they would be at an operating status.
    Senator Vitter. The exemptions we are talking about are 
specifically because we are moving from an operating plant to a 
non-operating plant, is that fair to say?
    Mr. Weber. You are correct. We would not approve those 
exemptions unless we had confidence in the safety and the 
security of those plants.
    Senator Vitter. I think some of this is semantics. You 
could go about it a different way. You could have a different 
set of requirements, a different rulebook for a non-operating 
plant. Then you could say there are no exemptions. If you don't 
like the word exemptions, let's do that but some of this is 
semantics because there are exemptions from rules that are 
directly applicable or more applicable to an operating plant, 
is that correct?
    Mr. Weber. That is correct. If I could add, back in the 
1990's when we faced the last wave of decommissioning, we 
actually considered the need for rulemaking and have proposed 
that to our commission but the events of 9/11 overtook those 
activities and we focused on the more pressing problems of the 
day and that was the security of the United States.
    Senator Vitter. In terms of SONGS in particular, obviously 
the NRC has looked at this issue of the location of the fuel. I 
know because of our oversight responsibility, the experts 
housed at the NRC, so I assume they were involved in looking at 
this, Mr. Weber?
    Mr. Weber. Absolutely.
    Senator Vitter. Mr. Mosier, compared to that, you are 
offering your personal opinion about lack of safety. What is 
your background in terms of the nuclear energy industry and how 
these things work? What is your specific technical background?
    Mr. Mosier. I would just like to say that the key issue we 
are addressing here is whether the safety risk for the public 
is diminished when the reactor stops and you are just storing 
spent fuel. The NRC itself has said that risk is not 
diminished, so I am quoting NRC documents.
    I am a scientist as well as a council member. I know a lot 
about radiation biology. I am not a physicist but I can read 
the documents and I have.
    Senator Vitter. What is your specific science background?
    Mr. Mosier. I am trained as a pathologist. I work in 
radiation models. I am currently working on the AIDS virus so 
that is a different expertise.
    Senator Vitter. In your testimony, I think you said there 
wasn't a clear answer about taking these fuel rods and encasing 
them immediately. What would you suggest immediately versus 
their storage at the site right now? What would you suggest be 
done tomorrow as the alternative?
    Mr. Mosier. The faster we can get these rods into dry cask 
storage the better. There are some old rods that are not high 
burn up fuel that could be moved immediately. That would help. 
The new high burn-up fuel rods may have to stay in the pool for 
a considerable period. Any move to decrease the crowding of the 
spent fuel pool would be a positive for the safety of the 
people in southern California.
    Senator Vitter. Mr. Fertel, as I understand, this expedited 
transfer issue, which is a specific focus of one of these bills 
that has been introduced, has been looked at extensively by the 
NRC. As I understand it, they recommended it be considered a 
Tier 3 issue, a low priority issue, and more recently 
recommended that the commission not put time and resources into 
pursuing this because of lack of significant safety gains. Is 
that correct?
    Mr. Fertel. That is absolutely correct. They issued their 
study just a few months ago. They are waiting on a commission 
decision. That is absolutely correct.
    Senator Vitter. That came out of the expertise presumably 
of the NRC?
    Mr. Fertel. Yes. It was done by the NRC staff and was 
recommended to the commission. It was looking at was there a 
safety benefit to rapid removal of the spent fuel into dry cask 
storage or leaving it in a pool. Their conclusion was there was 
not enough of a safety benefit to do it.
    Senator Boxer. Thank you. We will turn to Senator Sanders.
    Senator Sanders. Thank you, Madam Chair.
    Under SAFSTOR, one of the proposals to decommission nuclear 
power plants, spent fuel rods could remain in pools at the 
plant for 50 or more years. Mr. Recchia, how do you think the 
people of southern Vermont would feel knowing that spent 
nuclear fuel rods would remain onsite in the pool for up to 50 
years? How would they feel about that?
    Mr. Recchia. That is probably the most critical point of 
Vermonters' belief that fuel needs to be moved into dry cask, 
ideally taken away and offsite but understanding that a passive 
system that relies on the fuel just being there in casks is 
less risky than being in the pools.
    I would like to comment on the idea that the NRC has said 
this is equally safe. They have not. They have said there is a 
risk to fuel staying in the pool. Ironically, they have relied 
on the emergency protection zones as one reason why that is OK, 
to leave the fuel in the pool and yet another part of NRC is 
suggesting that those emergency protection zones be eliminated 
after closure.
    Senator Sanders. I think the point here is that I think a 
lot of people in Vermont felt pretty good when we learned that 
the nuclear power plant was going to be shut down. Now we are 
hearing it is going to be shut down but not quite, that we 
could live with nuclear fuel rods in a pool for the next 50 
years and that is a concern.
    I want to go to another issue. There have been claims that 
local communities and States already have plenty of opportunity 
to influence the outcome of the decommissioning process. In 
your judgment, is that true? Right now, do you think the State 
of Vermont or the State of California really has a seat at the 
table to really express the point of view of its citizens 
regarding the decommissioning process?
    Mr. Recchia. Absolutely not. We have an ability to comment 
but there is no response requirement, there is no role that 
those comments have in evaluating how the plant moves forward 
with decontamination and dismantlement.
    Senator Sanders. In other words, despite the ability to 
comment, a decommissioning process could be approved by the 
NRC, which many Vermonters would say this is not a good idea?
    Mr. Recchia. I wish it actually had to be approved by the 
NRC, but they don't even have to do that. They simply have to 
receive the report.
    Senator Sanders. From the company?
    Mr. Recchia. Right.
    Senator Sanders. Let me go to another question. This is for 
Mr. Weber. Thanks so much for being here.
    When the NRC commissioners participated in an oversight 
hearing several months ago, all five agreed that local 
communities have a legitimate interest in decommissioning 
plants. I think everyone would agree with that.
    What you are hearing from Mr. Recchia and other panelists 
is that right now States really do not have much input. They 
can talk but it doesn't really matter at the end of the day. Do 
you have any ideas about how we can strengthen the role of 
local and State governments and communities in the process?
    Mr. Weber. I had an opportunity to participate in a 
rulemaking back in the 1990's when we specifically considered 
this. We called it the enhancement participatory rulemaking. We 
considered giving greater weight to the input from States as 
well as other local stakeholders. Ultimately the commission 
found that it lacked the safety basis to justify those 
requirements. Those requirements were then issued in 1997.
    Having said that, we do work closely with the States. In 
fact, just last week, we had a webinar involving State 
representatives from around the Country.
    Senator Sanders. I am sorry, but I have limited time. I 
appreciate that. You work closely with the States but at the 
end of the day, it really doesn't matter what the States' views 
are. The plan that can finally be developed and go into impact 
can be something the States don't want and they really have 
nothing to say about it. They can talk about it but they have 
no real seat at the table.
    Mr. Recchia, the legislation that I am offering--there are 
three good pieces of legislation addressing this issue in a 
broad way--would require licensees to consult with the host 
State and State and local governments within 50 miles of the 
plant when drafting a proposed decommissioning plan. This 
consultation would help ensure that State and local concerns 
are identified and considered.
    The Act would also require the NRC to solicit public input 
on the proposed decommissioning before the document is 
finalized and approved. The Act would require the NRC to 
evaluate and formally adopt or reject a proposed 
decommissioning plan, which is not required now under current 
law, thereby improving accountability and transparency. Does 
that make sense to you?
    Mr. Recchia. It makes a lot of sense. It simply makes the 
NRC behave the way most regulatory agencies have to behave on 
review and response to a significant document. It is a good 
step in that direction. The Administrative Procedures Act calls 
for it in every other instance.
    Senator Sanders. Thank you all.
    Senator Boxer. Thank you, Senator.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Mr. Weber, I understand that the NRC staff found that the 
fuel rod assemblies stored in pools remained in tact at 
Fukushima, is that correct?
    Mr. Weber. That is correct.
    Senator Inhofe. I further understand that the NRC staff 
found the risk of having a spent fuel pool of fire and offset 
offsite dose consequences are extremely remote. I think in my 
opening statement I used 1 out of 10,000,000 years once a plant 
ceases operations and the last fuel is removed from the reactor 
and has cooled for a relatively short period of time.
    Would a relatively short period of time be 6 months?
    Mr. Weber. It could be several months.
    Senator Inhofe. I had another question but I think it was 
adequately asked by Senator Vitter.
    Mr. Fertel, you know better than most the tough time that 
has been going on for the nuclear industry for the past couple 
years. It is my understanding that the NRC has some 50 orders 
and regulations being developed right now.
    In my opening statement, I might have been a little unkind 
to part of the bureaucracy but it has been my experience in the 
past that the less the workload, the greater the bureaucracy, 
the more time they have to regulate.
    While the cost of each individual regulation may not be 
massive, together with the cumulative cost, it is crippling. 
Added to that, things like the EPA's 316(b) rule, the water 
rule, could add another $100 billion to your industry's 
regulatory compliance.
    Will you comment on the cumulative cost of Federal 
regulations and how they could impact the U.S. electricity 
affordability and reliability?
    Mr. Fertel. We are actually working with the NRC and others 
on trying to make sure that the cumulative impact not only 
doesn't affect us from a cost standpoint but of equal 
importance, it doesn't distract us from our focus on safety.
    When we have too many things coming at us and they have too 
many things they are looking at, we are probably not as focused 
on safety things as we should be. We believe right now that 
what the NRC needs to do--and we are culpable on our side too 
on some distraction--is to really look across the board as 
opposed to within each silo and make sure that from a safety 
standpoint what we are being asked to do truly has benefit for 
safety and is worth the cost to do.
    There are a number of things that probably don't fall into 
that.
    Senator Inhofe. I admit I have been a bit paranoid about 
the over regulation that we have right now coming out of the 
Environmental Protection Agency, not just cap and trade but 
various emission standards where there is no technology to 
bring that and the cumulative costs. In fact, we have 
legislation to articulate that cumulative cost.
    One thing that hasn't been talked about by any of the 
witnesses or any of the questions is the issue of reliability 
and dependability. We have a lot of sources and I think it is 
important that you address this because it is my understanding 
if you look at what can happen to a source of energy in this 
country, the most reliable would be nuclear.
    The least reliable would be some of the renewables like 
wind. You could develop a level of dependency. All of a sudden 
the wind stops, what do you do? I would like to have you 
address the significance of the reliability and dependability 
issue that we should be dealing with now.
    Mr. Fertel. Probably the easiest way to talk about that is 
to think back to the polar vortex that we had this past winter. 
We had a real problem in getting electricity and gas, 
particularly to New England because of infrastructure issues 
and because of a shortage.
    Nuclear plants really have fuel onsite all the time because 
it is in the core. We don't emit any emissions of any 
greenhouse gases or any other criteria pollutants for that 
matter. Senator Sanders mentioned the good local economic 
impacts that a nuclear plant has. We also provide stability to 
the grid from the standpoint of voltage stability.
    From a reliability standpoint, we see nuclear plants as a 
backbone of our electricity infrastructure. Right now, in a 
number of markets, that is not at all recognized. We are hoping 
that more and more it will get recognized.
    Senator Inhofe. My time has expired, but I want to make 
sure we are focused on this because we have heard a lot of 
predictions about what could happen this summer and following 
summers if we were to have blackouts or brownouts in this 
country. That would be pretty disastrous. Are you familiar with 
some of the statements that have been made?
    Mr. Fertel. Yes, I am. They are coming from people that 
actually look at that very hard not only the industry side but 
also the policy side. It is because we are shutting down a lot 
of coal plants because of the EPA regulations. We have a number 
of nuclear plants in jeopardy because of policies making them 
uneconomic, even though they are actually very economic plants.
    Again, if you shut down coal and nuclear plants, you really 
are shutting down the backbone of our electricity system.
    Senator Inhofe. I think that really needs to be talked 
about before the disaster occurs.
    Thank you, Madam Chairman.
    Senator Boxer. Thank you so much.
    Senator Markey.
    Senator Markey. Thank you, Madam Chair.
    It used to be that people thought nuclear energy would be 
too cheap to matter but now with cheap gas and wind, nuclear 
energy is actually too expensive to matter. The Excelon funded 
group Nuclear Matters is trying to convince us that nuclear 
energy is necessary to fight climate change, yet Excelon and 
other nuclear utilities are actively lobbying against policies 
that encourage the development of wind and solar energy.
    At the time, four nuclear reactors shut down last year and 
Vermont Yankee announced it will soon join them. A wide range 
of analysts believe more retirements are coming. At this rate, 
nuclear soon may not matter at all.
    Meanwhile, waste continues to pile up at reactor sites all 
across the country. Most of the waste is stored in large pools 
of water that were built more than 30 years ago and not 
designed to hold anywhere near what they have now.
    Pilgrim's nuclear power plant, for example, was designed to 
hold 880 spent fuel assemblies and currently holds over 3,200. 
If an accident or terrorist attack were to occur, it could lead 
to radiation releases far greater than at Chernobyl or 
Fukushima.
    That is why I recently introduced the Dry Cask Storage Act 
which gives plants 7 years to remove all the waste that can be 
removed from the pool and put it into safer dry cask storage, 
and provides funding to help offset the cost, and increases the 
size of emergency planning zones around plants that choose not 
to remove the waste from their pools.
    Mr. Recchia, I understand that Entergy has said it would be 
able to remove all the spent fuel from the pools at Vermont 
Yankee within 7 years. Do you perceive any obstacles to meeting 
that deadline?
    Mr. Recchia. Thanks for introducing the bill that you did.
    The only obstacle that I see is a financial one. At this 
point, Entergy has agreed that it is in their financial 
interest and Vermonters' interest to move that fuel out of the 
spent fuel pool quickly. The problem is that the United States, 
having taken responsibility for that fuel, the Department of 
Energy needs to quickly reimburse the expenses of that work. 
That has not happened regularly.
    Senator Markey. Given the fact that NRC studies show that 
the consequences of a spent fuel fire can be as severe as the 
consequences of an accident at an operating reactor, do you 
think removing the fuel from the pool more quickly will 
increase safety?
    Mr. Recchia. Yes, I do, absolutely.
    Senator Markey. Mr. Fettus, do you agree that storing fuel 
in dry casks is a safer option and can be done within 7 years?
    Mr. Fettus. It is a substantially safer option and yes.
    Senator Markey. Mr. Weber, is it true that without 
continuous cooling of the pools, the spent fuel has the 
potential to catch fire?
    Mr. Weber. You are correct.
    Senator Markey. Is it true that removing spent fuel from 
pools reduces the amount of radioactivity that could be 
released if a spent fuel fire were to occur?
    Mr. Weber. Yes.
    Senator Markey. Mr. Fettus, nuclear energy has long made up 
about 20 percent of U.S. electricity supply. Last year, it 
dropped to 19 percent. The Energy Information Administration 
anticipates nuclear's share of the generation portfolio will 
continue declining so that a decade from now less than 17 
percent of U.S. electricity will come from nuclear.
    The reason is that plants are closing faster than new ones 
are opening. Last year, six reactors announced plans to 
permanently shut down and last week, Chairman Macfarlane 
testified that the number of nuclear license applications has 
been reduced from 18 to 8 in the past few years.
    Wall Street walked away from financing nuclear power plants 
decades ago but now wind and cheap natural gas are undermining 
the economics of existing nuclear plants as well.
    Absent legislation such as the Waxman-Markey bill, which 
the EIA found would lead to the construction of 69 new nuclear 
reactors by 2030, do you agree with EIA that nuclear's share of 
the electricity market will continue to decline?
    Mr. Fettus. Yes.
    Senator Markey. We need the private sector onboard to build 
out a low carbon energy system. The government can't finance it 
on its own. Fortunately, billions of private sector dollars are 
flowing into wind, natural gas, solar and energy efficiency. 
That is just not happening with nuclear.
    The only entities willing to finance nuclear plants are 
governments. Mr. Fettus, why is the private sector not 
interested in financing new nuclear power plants?
    Mr. Fettus. Senator, I think you would have to ask the 
private sector. From NRDC's perspective, one, nuclear power is 
not going away. It is going to exist for some time forward. 
Therefore, we need to safely regulate it.
    We also, like you just summarized, agree with EIA that 
there is very likely a declining curve. It is our perspective 
that renewables and efficiency provide a huge potential gain 
for major climate benefits much more cheaply and safely than 
new plants and keeping old plants running that shouldn't be 
running.
    Senator Boxer. I am so sorry to cut you off but we really 
need to turn to Senator Sessions. The vote just started.
    Senator Sessions. Thank you, Madam Chair.
    Mr. Fertel, investors that build a nuclear plant and invest 
in that operate under the assumption that they have to meet the 
decommissioning requirements of the NRC. Would it be a 
detriment to any construction of a multibillion dollar nuclear 
plant if they had to guarantee or acquiesce to any 
decommissioning regulations that would be imposed by local 
municipalities or a State regulatory board?
    Mr. Fertel. We always would like the input from local 
folks, but again, the reason the Atomic Energy Act is the way 
it is was to make sure the Federal Government, through NRC, 
regulated this. Adding more uncertainty would make it much more 
difficult for us to build new plants.
    Senator Sessions. Mr. Weber, what is your policy with 
regard to listening to Mr. Mosier and others who express 
concern? Do you react to that? Do you evaluate their concerns 
and if they are valid, will the NRC act on them? Is that your 
understanding of your duty?
    Mr. Weber. Yes, absolutely. We listen, we welcome and we 
consider the comments provided and they often influence how we 
review the decommissioning projects.
    Senator Sessions. Mr. Fertel, with regard to the cost of 
nuclear power, are you aware of any production of electricity 
that has a cost impact or CO2 impact more favorable than 
nuclear power?
    Mr. Fertel. No, sir. Nuclear power has the most favorable 
impact on reducing emissions of any kind, including greenhouse 
gas emissions. It is 62 percent of our greenhouse emission free 
electricity system today.
    Senator Sessions. Mr. Weber, it seems to me that NRC has 
taken the safety issue seriously. My understanding is that 
since the entire commencement of nuclear power in the United 
States, we have never had an individual killed or even one made 
sick from excessive exposure to nuclear radiation. You have a 
pretty good safety record, wouldn't you say?
    Mr. Weber. Yes.
    Senator Sessions. Mr. Fertel, do you agree with that? Do 
you have any comment on that?
    Mr. Fertel. I certainly do agree with that.
    Senator Sessions. We just saw in the paper today hundreds 
of people in a coal mine in Turkey losing their lives. Natural 
gas is competitive price-wise. I guess you would agree, but it 
certainly emits CO2 and pipelines and other transportation and 
drilling projects create more risk than has been established 
with nuclear power, has it not?
    Mr. Fertel. Certainly true.
    Senator Sessions. Are you concerned, Mr. Fertel, about a 
continuing series of actions by this government, including not 
taking the waste in the community or adding such burdens to the 
future of the industry that could be in jeopardy and that we 
could be missing an opportunity for continued baseload, low 
cost, environmentally friendly power that we will regret in the 
years to come?
    Mr. Fertel. I think there is clearly that threat to our 
existing plants. If we continue to lose existing plants, it 
would be very hard to see decisions to build new plants.
    Senator Sessions. Madam Chairman, I thank you for that 
opportunity. I would note that the NRC staff issued a report in 
November of last year finding ``The expedited transfer of spent 
fuel to try cask storage would provide only a minor or limited 
safety benefit and its expected implementation cost would not 
be warranted.''
    Mr. Weber dealt with some of the questions we are dealing 
with. The title of the report was Consequence Study of a Beyond 
Design Basis Earthquake Affecting the Spent Fuel Pool for a 
U.S. Mark I Boiling Water Reactor. A study was explicitly done 
on that subject, is that correct?
    Mr. Weber. You are correct, Senator. On top of that, we 
broadened the conclusions to address the entire United States 
fleet. That analysis is presently pending before our commission 
and they are deciding what action should be taken on that.
    Senator Sessions. If they feel the report calls for 
additional restrictions or alterations in policy, that would be 
proposed?
    Mr. Weber. That is correct.
    Senator Sessions. Thank you.
    Senator Boxer. Thank you, Senator.
    Mr. Weber, when I asked if you agreed with the NRC finding 
about the fires, you said you did. I think it is important to 
note that the NRC paper you agree with says, there is a chance 
of a fire in spent fuel pools forever.
    Understanding that, it is very difficult for me to 
understand why the NRC has never once rejected a request from 
the operator of decommissioned reactors where they ask to be 
exempted from all emergency response requirements.
    My understanding is the Vermont plant and the San Onofre 
plant, the NRC is reviewing the request by the operator that 
they be relieved of all emergency response requirements. When 
you go back, is it your opinion that they ought to be exempted 
from those requirements in both Vermont and San Onofre since we 
have pointed out in both cases there are many more fuel rods 
sitting there than the plants were designed to hold?
    What are you going to say when you go back? Are you going 
to tell them that you think they ought to be granted this 
exemption or not?
    Mr. Weber. The staff is currently reviewing those 
applications and we would not grant them unless we concluded 
that it was safe to do so.
    Senator Boxer. Will you do me a favor? Will you go back and 
tell them that Senators Boxer, Sanders and Markey are extremely 
concerned that this isn't just some kind of rote thing. You 
have never once rejected a request from an operator of 
decommissioning reactors who has asked to be exempted from 
emergency responses. It is ridiculous.
    Dr. Mosier, Mr. Recchia and Mr. Fettus, do any of you 
believe the NRC should grant those requests that the operators 
be exempted from emergency requirements when the NRC admits you 
could have fires there forever?
    Mr. Mosier. No. I would like to point out that Southern 
California Edison has already dismissed the security staff at 
SONGS before they notified NRC. They received a reprimand from 
NRC after the fact but nothing reversed the action.
    Senator Boxer. The NRC said that was wrong but they did 
nothing to order them back, is that correct?
    Mr. Mosier. That is my understanding.
    Senator Boxer. Mr. Recchia?
    Mr. Recchia. We have 3,800 fuel rods in a pool that was 
designed for 350. We don't think it is safe to eliminate the 
emergency protection zones until the fuel is at a minimum in 
the dry casks.
    I should point out that in addition to the individual plant 
applications for these exemptions, the staff of the NRC has 
proposed interim guidance to eliminate it entirely across the 
board as soon as a plant has defueled its reactor. This is a 
global issue for all plants.
    Senator Boxer. I agree.
    Mr. Fettus. I concur with everything that Mr. Recchia just 
said and I would like to add one other area where it was 
mentioned there is an opportunity to request a hearing on the 
license termination.
    I speak as one of the few lawyers who had the foolishness 
to wade into the NRC hearing process. The bars to public or the 
State entering those hearing processes are so high, it is 
extraordinary. It is like no other Federal agency.
    One, those exemptions should not be granted until the spent 
fuel is out of the pools. Two, the process provides for no 
meaningful State or public control.
    Senator Boxer. Let me conclude my questioning in this 
fashion. I look at San Onofre where the plant was designed to 
hold 1,600 spent fuel rods. There are 2,600 in there. That is 
dangerous. I am not making it up. Your own Chairman wrote that 
if there is an accident, it could be worse than Chernobyl. It 
is outrageous that when they sent home the security teams, all 
they got was a reprimand, which basically says, file the 
papers, you didn't file the papers.
    I am going to stay on this. I am going to California with--
he doesn't know it yet--Mr. Mosier and we are going to demand 
that the NRC step up to the plate. I am not going to put 8 
million people in jeopardy. If the NRC wants to do it, they are 
not either because we are not going to let them do it. The 
public opinion is ridiculous.
    My friend, Senator Inhofe--with whom I have the best 
friendship--on these issues, we part ways. He is worried about 
overregulation of air, water, nuclear safety. I want to be 
clear, never in all the years I have been in the Senate--that 
is 20 years, add on 10 in the House, 6 in local government--
never has anyone come up to me and said, Barbara, the air is 
too clean, the water is too clean and the nuclear power plant 
is just fine. Don't worry about it.
    It is the opposite. People want reasonable regulation, not 
over regulation, not stymie the economy but we know what 
happens when there is a horrific accident with one of these 
things. It destroys the industry. It is in the industry's best 
interest.
    I just want to thank Senators Sanders and Markey. They are 
passionate on this and we are not going away. Could you give 
that message to your friends at the NRC--our friends at the 
NRC? Thank you.
    Senator Sessions.
    Senator Sessions. Thank you, Madam Chair.
    I appreciate your concerns for your constituents. It 
becomes a serious and emotional issue but I do believe the NRC 
has a proven record of success in regulating these matters. We 
endanger this weak economy driving up the cost of energy, by 
closing plants that could be productive for a decade or more 
longer, and blocking the creation of new nuclear plants.
    Those are not going to be good for America and not going to 
add to the environmental improvement of America. In fact, it is 
going to place us at greater risk. We are not going to be able 
to replace with renewables any time soon the baseload power we 
get from nuclear power. It would all be replaced by some other 
fossil fuel. That is pretty obvious.
    To me, nuclear power is environmentally positive, as well 
as economically feasible.
    Mr. Fertel, if we had as much subsidy to nuclear power per 
kilowatt as wind and solar, would nuclear power be competitive 
today?
    Mr. Fertel. It probably would be but I think our attitude 
right now would be we should just remove subsidies and let 
everybody compete fairly in the markets they are in.
    Senator Sessions. I would agree. I am not saying you should 
get that subsidy. I am just raising the point that somebody 
pays those subsidies. The American people pay them. There is no 
free lunch here.
    Madam Chairman, thank you for raising an important issue. I 
know you are concerned about it. Your leadership is relentless 
and I am sure NRC has gotten that message.
    Senator Boxer. Good.
    Senator Sanders.
    Senator Sanders. I think Senator Boxer and I feel so 
strongly about this issue we are going to miss a vote.
    Mr. Fertel, you just said something and my ears perked up. 
Let me see if I got you right. You said that we should remove 
subsidies in terms of energy and I presume let the free market 
do its thing?
    Mr. Fertel. I am talking in the electricity market.
    Senator Sanders. The electricity market. Will you join me 
in legislation that I am proposing to end the Price-Anderson 
legislation--repeal Price-Anderson legislation?
    Mr. Fertel. No, sir, I won't because Price-Anderson isn't a 
subsidy. Price-Anderson is the best third party liability 
program in the world.
    Senator Sanders. Mr. Fettus, why isn't the nuclear industry 
taking advantage of the free market and going to Wall Street 
for insurance, because I have heard over and over from my 
conservative friends--maybe Mr. Fertel will talk about--get the 
government out of energy. Let the free market work.
    In terms of nuclear power, how much nuclear power will we 
have in this country if we let the free market work and we got 
the government out of the nuclear industry?
    Mr. Fettus. If the government did not back up liability 
insurance?
    Senator Sanders. Yes.
    Mr. Fettus. If the government did not assume responsibility 
for liability insurance pasts $12.7 billion, if the government 
did not assume the responsibility to pick up the waste and if 
the government did not assume an astonishing array of subsidies 
that were passed during previous Administrations, like nuclear 
power 2010 and the loan guarantees with no credit subsidy 
costs, I don't know how much nuclear power there would be but 
it has been a government-created process for years.
    Senator Sanders. Is it quite possible the entire industry 
would collapse without those subsidies?
    Mr. Fettus. I find it hard to imagine the industry 
expanding.
    Senator Sanders. Here is the point. Most people don't know 
this. Mr. Fettus, correct me if I am wrong.
    If, God forbid, there were ever a Fukushima in this 
country, it was a real disaster, who picks up most of the 
liability costs?
    Mr. Fettus. Certainly the taxpayer would.
    Senator Sanders. The taxpayers. I have just heard from Mr. 
Fertel and my conservative friends they want to get the 
government out of the energy business. If the taxpayers of this 
country have to pick up the cost of a disaster, they are very 
much involved.
    Second of all, what impact on the ability of the nuclear 
industry to borrow is Price-Anderson sitting there? Does that 
have an impact, do you think, and enable them to get cheaper 
money than otherwise would be the case?
    Mr. Fettus. Yes.
    Senator Sanders. Mr. Fertel.
    Mr. Fertel. Price-Anderson, as a rule, requires--and Geoff 
got it right--about $12.7 billion in obligation. Then it says 
that the Congress will decide if more money is necessary as to 
whether the industry would pay it or whether someone else would 
pay it, so it does not default to the taxpayers.
    If you look around the world, no one has a third party 
liability program that has an obligation anything like $13 
billion.
    Senator Sanders. Why should the taxpayers have to be the 
ones?
    Mr. Fertel. The taxpayers don't have any obligation right 
now--only if you give it to them, Senator.
    Senator Sanders. Mr. Fettus, did you want to respond to 
that?
    Mr. Fettus. I cannot imagine in the event of--hopefully it 
will never happen--a dreadful nuclear accident, Congress would 
not make sure that wherever that accident happened, that all 
efforts would be taken to support those communities and those 
people in that environment damaged.
    Senator Sanders. I agree with you.
    Mr. Recchia, Entergy, as Senator Boxer mentioned a moment 
ago, has joined many other nuclear plant operators in 
requesting an exemption from key safety protection 
requirements. Correct me if I am wrong. Vermont Yankee was 
originally proposed to have 350 rods?
    Mr. Recchia. Yes, that is my understanding.
    Senator Sanders. How many nuclear rods do we have?
    Mr. Recchia. Over 3,800. I think it is 3,879.
    Senator Sanders. So it is like a tenfold increase. Mr. 
Weber, are we right on that or is that not the case?
    Mr. Weber. I am sorry, Senator, I don't have the numbers in 
front of me.
    Senator Sanders. Despite what we think may be a ten times 
increase in the number of nuclear rods on the premises, Entergy 
is requesting an exemption from key safety requirements. What 
is the State's position about an exemption from key safety 
requirements?
    Mr. Recchia. The State's position is that until the fuel is 
moved, at minimum, in to dry cask storage, that emergency 
protection needs to be kept. There is the potential for offsite 
emergencies to occur.
    I want to emphasize that the real key problem here--and we 
haven't gotten to the subtleties--that that as merchant 
facilities, as opposed to a public utility owned facility, 
there is no money to do that after the plant closes according 
to Entergy except for the use of the decommissioning trust fund 
which, by the way, the NRC tends to grant exemptions to go into 
that fund for various purposes, spent fuel and a variety of 
things.
    It is unconscionable that during the life and operation of 
the plant that there is no a fund established and funding 
mechanisms to deal with these issues aside from a 
decommissioning trust fund which, by the way, the ratepayers of 
Vermont put every penny into.
    Senator Boxer. Thank you so much.
    Senator Markey.
    Senator Markey. I will just speak briefly; there is a roll 
call going on.
    I would just say that right now the nuclear industry's 
liability is capped in the event of a catastrophic accident. 
The industry is eligible for billions of dollars in taxpayer 
loan guarantees for the construction of new nuclear power 
plants.
    Owners of nuclear facilities are allowed favorable tax 
treatment that permits accelerated depreciation of new reactors 
and reduced tax rates on nuclear decommissioning trust funds. 
That is a lot of money that the taxpayers are guaranteeing.
    The extent to which all of a sudden with the rise of wind 
and solar, the nuclear industry becomes concerned that the 
government might be playing a role in helping to subsidize an 
energy source while simultaneously the oil and gas industries 
are receiving $7 billion a year but not a peep is going to be 
heard from the utility industry on that part, it just shows you 
that here there is a threat and once you level the playing 
field and allow the new energy sources to finally compete after 
70 years, we are now having that revolution.
    The original revolution in nuclear was government 
subsidized, let's be honest about it. They were given favorable 
treatment but solar and wind were strangled year after year 
after year after year. What we have seen in the last 5 years is 
that 80 percent of all new solar has been deployed. The last 7 
years, 80 percent of all wind has been deployed because the tax 
treatment has been more favorable. State laws are more 
favorable.
    The nuclear industry is frightened, as they should be. Adam 
Smith is spinning in his grave listening to the nuclear 
industry protest. Adam Smith is spinning in his grave so 
quickly that he would qualify for a tax subsidy as a new energy 
source in protest to the hypocrisy on stilts of the nuclear 
industry in making those arguments.
    All I can say is nuclear get ready to meet your maker in 
the marketplace. It is coming. It is renewables, it is energy 
efficiency and unfortunately, as I said earlier, the Waxman-
Markey bill had $75 billion worth of funding for new energy 
technologies which nuclear would have qualified for but that 
bill died, killed by the coal industry. It turns out one of the 
collateral victims of this might be the nuclear industry 
because that was a pathway to the future, putting that cap on 
carbon.
    I thank you all. I thank you, Madam Chairman, for this 
hearing.
    Senator Boxer. Thank you very much, Senator.
    Here is the thing. My understanding is that the NRC allowed 
these three companies--I am focused on Pilgrim, Yankee and San 
Onofre--to increase the number of fuel rods, am I correct?
    Mr. Weber. You are correct.
    Senator Boxer. The NRC said it was perfectly fine for 
Pilgrim, who was licensed for 800, to have 3,300 spent fuel 
rods; Yankee to have from 300 to 3,000 and SONGS from 
approximately 1,600 to 2,600, is that correct?
    Mr. Weber. Again, I don't have the numbers in front of me.
    Senator Boxer. Assuming my numbers are right, NRC did 
approve this change, is that right?
    Mr. Weber. Based on our safety conclusions, yes.
    Senator Boxer. Based on your safety conclusions. You very 
clearly say that a fire in the spent fuel rods would be, 
according to Allison Macfarlane, more dangerous than Chernobyl 
and that you could never say there wouldn't be a fire. That is 
what the NRC has stated and you have confirmed that is correct.
    I think even Mr. Fertel agrees with that finding, although 
one of your vice presidents said there could never be a fire, 
so I will ask for that for the record.
    My point is, think about this like a normal person, not 
doing what I do or what you do, a person on the street that 
says well, the plant was designed for these fuel rods and they 
allowed them, in many cases, 300 times more than designed for, 
is that right--ten times more.
    Do you think, since we now know you could always have a 
fire, forever the threat exists, do you think these plants 
should be exempted from having to have emergency plans for the 
community? I think the average person would say, you have to be 
kidding. You still have a grave threat of a fire, a danger, 
especially when you have an earthquake fault, and yet they have 
never said no to anyone.
    I have to tell you this raises huge concerns to me about 
who the heck the NRC is and whose side are they on. Are they on 
the side of the public who they are supposed to protect or are 
they on the side of industry because industry says, it will 
cost us money. Yes, think about how much money it will cost you 
if there is a fire and anything like what happened in 
Fukushima, but you don't really worry because the taxpayers 
would bail you out of that. Say what you want, Mr. Fertel, that 
is what Price-Anderson is.
    I believe it is morally unjustified for the NRC to abandon 
these communities such as the one that City Councilman Mosier 
represents by telling these companies yes, we allowed you to 
just over the limit that we thought was safe for the fuel rods, 
but now just too bad, you don't have anymore requirements for 
an emergency plan.
    I know this is under discussion now but there will be hell 
to pay if the NRC does what it has done in the past. I need you 
to take back that message. I am sure you don't agree with me. 
That is your right. I am sure Mr. Fertel doesn't agree with me. 
That is fine too.
    Guess what? I don't work for the nuclear industry, I work 
for the people. I have 8 million people within 50 miles of a 
plant that has been shut down that has more spent fuel rods 
than it was designed to hold. There is no rhyme or reason other 
than I am going to save a few dollars for the utility. That is 
absolutely pennywise and pound foolish because something 
horrible could happen. I don't even want to think about it.
    People say, we have done such a great job so far. They did 
in Japan too. Senator Sanders said to me, this is an industry 
where you can't have 99 percent perfect. You have to be pretty 
close to perfect because of what could happen. Therefore, if 
you are going to bend, bend toward safety. Don't bend toward 
the risk.
    We have a lot more questions but we are going to be 
watching what the NRC does, the three of us if not others. We 
don't expect them to say to these operators, you are off the 
hook, don't worry about evacuation plans, don't worry about 
sirens, don't worry about warnings. We expect the NRC to stand 
up for safety. We expect the chairman who wrote that paper 
years ago, to stand by what she believes is true, that a fire 
there could be worse than Chernobyl.
    This has been a very important hearing. I just want to say 
to our panel, I have never seen a panel that truly all of you 
had the facts and were able to speak to your expertise. It 
means a lot to us all, Minority and Majority.
    This isn't over. We have a few bills now that we are 
dealing with. My bill is quite simple. We are saying NRC has no 
right to tell an operator they are off the hook on emergency 
plans just because a plant is shut down. I am just trying to 
think of an analogy that is as dangerous as that. It is totally 
ridiculous.
    I guess it is like saying if you have a jail that was being 
protected as it should be, because one of the dangerous 
prisoners got out, you just said, OK, we don't need to protect 
anyone. When a plant shuts down, one risk is definitely gone 
from that daily operation but you still have this unbelievable 
risk made worse by the NRC and the operators when they ask to 
put in more of these spent fuel rods than the plant was safely 
designed for.
    Thank you very much, everybody. We will be back with more 
of these hearings. We hope you will all stand by to help us as 
we move forward.
    We stand adjourned.
    [Whereupon, at 11:46 a.m., the committee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
